      Investigative Report
                                             John A. Latschar


                                      Report Date: September 17, 2009
                                   Date Posted to Web: September 29, 2009




 This report contains information that has been redacted pursuant to 5 U.S.C. §§ 552(b)(2), (b)(6), and (b)(7)(C) of
 the Freedom of Information Act. Some references indicating gender were written in the masculine form to protect
the identities of individuals and to facilitate the reading of the report. Supporting documentation for this report may
                  be obtained by sending a written request to the OIG Freedom of Information Office.
                   United States Department of the 'Interior
                               OFFICE OF INSPECTOR GENERAL
                                    Washington, DC 20240

                                                                            SEP 2 5 2009



Memorandum

To:            Daniel N. Wenk
               Acting Director, National Park Service

From:          Mary L. Kendall   '---.A . . :~Jai2P
               Acting Inspector   Gfne~r'f
Subject:       Report of Investigation - John A. Latschar

       The Office of Inspector General has concluded an investigation based upon a complaint
suggesting mismanagement and unethical decision-making at Gettysburg National Military Park
by Superintendant John A. Latschar. The complaint further raised concern regarding the
replacement of the park's former contracted operator, Eastern National, with its current operator,
Gettysburg Foundation, and potential fraud and financial mismanagement surrounding the
construction of a new museum and visitor's center.

        Our investigation revealed no evidence that Latschar was involved in criminal activity at
the park. While the General Agreement between the park and the Foundation is a controversial
partnership, our investigation uncovered no evidence of fraud in the creation or operation of the
partnership. Moreover, we discovered no evidence of criminality or conflict of interest in
contracting practices providing construction management services for the museum and visitor's
center.

       Should you need additional information concerning this matter, you may contact me at
(202) 208-5745.

Attachment
                                     RESULTS IN BRIEF

This investigation was initiated pursuant to a complaint alleging improprieties at Gettysburg
National Military Park (GNMP or “the park”) in Gettysburg, PA. According to the complainant,
the park’s problems are the responsibility and fault of the current superintendent, John A.
Latschar, whom the complainant believes has mismanaged the park and acted unethically while
operating the park. Moreover, the complainant alleged that the park’s former contracted
operator, Eastern National, was unjustifiably replaced by the current operator, Gettysburg
Foundation (GF or “Foundation”), which essentially enjoys a commercial monopoly over the
park’s tourism business. In addition, the complainant alleged that the park’s new multimillion
dollar Museum and Visitor Center (MVC), which the Foundation built and owns, is the result of
financial misrepresentation and, possibly, fraud. Additional allegations were presented during
the investigation by witnesses and the National Journal.

Our investigation revealed no evidence that Latschar was involved in criminal activity at the
park. While the General Agreement between the park and the Foundation is a controversial
partnership, our investigation uncovered no evidence of fraud in the creation or operation of the
partnership. Moreover, we discovered no evidence of criminality or conflict of interest in the
contracting of Kinsley Construction to provide construction management services for the MVC.

Our investigation also revealed that Latschar authorized repair and replacement of fencing
surrounding a park pasture that his wife leases to contain her horses.

                                        BACKGROUND

In 1994, John A. Latschar became the superintendent of Gettysburg National Military Park
(GNMP or “the park”) and the Eisenhower National Historic Site. In January of the following
year, Roger Kennedy, then Director of the National Park Service (NPS), gave approval for the
GNMP to pursue a public-private partnership, and in April of that year, after negotiations with a
developer and review by the regional solicitor, GNMP released a draft Development Concept
Plan for public review. Comments from the public came in and, in April 1996, NPS released a
revised Development Concept Plan. This was followed by a Request for Proposals (RFP) in
December 1996 for the cooperative development of a new museum and visitor center. The RFP
stated, “NPS seeks to consider proposals for the cooperative agreement from all possible sources,
including for-profit not-for-profit and/or governmental entities. Because there is no federal
funding for construction, only limited federal funding for the operation of the Visitor
Center/Museum Facilities, and no federal funding for construction or operation of the Related
Facilities, NPS will consider a variety of mechanisms and locations to make the Complex a
reality.” The selected proposal was submitted by Robert Kinsley, President, Kinsley
Construction (KC).

On December 21, 1999, NPS issued its Record of Decision (ROD) regarding the park’s General
Management Plan (GMP) and Environmental Impact Statement, which was approved by the
NPS Northeast Regional Director on November 23, 1999. The purpose of the GMP, according
to the public record, was “to set forth a basic management philosophy for a park and to provide a
framework for future decision making” and “to reach a decision regarding the specific resource

                                                1
conditions and visitor experiences that NPS should achieve and maintain” at GNMP.

One of the four mission goals that NPS established for GNMP was that “visitors safely enjoy
high quality educational experiences accessible to all segments of the population.” The ROD
proposed that the private partner’s development of the new facilities would expose the public to
more interpretive venues and a broader interpretive experience. The selected proposal approach
“allows NPS fully to meet the requirements of [G]NMP’s legislation at the least cost to the
environment, park visitors and the Federal budget.”

The ROD notes that the selected plan of action “will increase visitation and length of stay at the
park, which in turn will increase per capita spending by 10% over current levels.” The document
further concluded that “[t]he combination of higher per capita spending and a moderate increase
in visitation means that visitors will spend an additional $24,278,900 annually in the
communities adjacent to the park, an increase of 21.5% over current spending levels.”

In June 2000, NPS signed an agreement with the Gettysburg National Battlefield Museum
Foundation (Museum Foundation), which was later revised in November 2002 at the behest of
the Congress, granting them the authority to raise funds required to design, build, and operate a
new museum complex for the park. Terms indicated that the Museum Foundation would operate
the complex on behalf of the NPS for 20 years, after which the land and the building would be
donated to NPS.

In June 2000, the Museum Foundation selected Robert Wilburn, former CEO of Colonial
Williamsburg & Carnegie Institute, as their president. Cooper Robertson was selected as the
design architect, and LSC Design (LSC), run by Kinsley’s son Rob Kinsley, Jr., was selected to
provide engineering design for the MVC.

In 2005, construction on the MVC began. In June of the following year, the Museum
Foundation merged with another private organization, the Friends of the National Parks at
Gettysburg, to become the Gettysburg Foundation (GF or “Foundation”).

On April 14, 2008, the Foundation announced the new MVC opening to the public, and on
August 28, 2008, NPS released an all-in-one fee proposal for a public 30-day review and
comment period. On October 2, 2008, following the grand opening of the Cyclorama painting to
the public, the all-in-one fee structure went into effect.

On November 17, 2008, the Foundation announced that Latschar was selected to replace
Wilburn as the president of the Foundation, effective March 1, 2009. During the course of this
investigation and upon the advice of DOI’s Office of Ethics, Latschar turned down the position
and, at the time of this report, remains the superintendent of GNMP.

                              DETAILS OF INVESTIGATION

This investigation was initiated on July 23, 2008, based on allegations of mismanagement and
fraud on the part of John A. Latschar, Superintendent, Gettysburg National Military Park and
Eisenhower National Historic Site (ENHS). In addition, complaints were levied against the

                                                2
park’s relationship with the Gettysburg Foundation—the park’s partner in developing and
operating the park’s new Museum Visitor Center—and the park’s relationship with Robert
Kinsley, the Foundation board’s chairman and owner of Kinsley Construction.

During the course of our investigation, we conducted over 45 interviews with current and former
NPS employees, individuals who work for the Foundation and other park partners, as well as
private citizens. We also reviewed thousands of pages of public and private documents.

Numerous allegations were presented to the OIG with additional leads developed throughout the
course of the investigation. The allegations examined (and addressed in report sections
identified in parentheses) during the investigation were as follows:
    • Control of the park has been essentially turned over to the Foundation and KC because
        NPS does not maintain sufficient oversight of its partner’s actions. (NPS Oversight)
    • Latschar used his position to influence the decision of the Development Advisory Board
        (DAB). (NPS Oversight)
    • The new MVC is the result of mismanagement and possible fraud, having been proposed
        as a facility requiring no federal funding but eventually using $15 million in
        congressionally-earmarked funds. (Federal Funding and its Ramifications)
    • Latschar and the Foundation are creating a commercial monopoly at the park with visitor
        fees. Specifically, the park’s museum, which should be free to the public, is now
        charging an admissions fee after being proposed to the public as a free venue. (The Cost
        of a Visit)
    • Contracts at the park are awarded without competition, mostly to KC. (Award of
        Contracts)
    • There are conflicts of interest at the park—specifically, the Foundation’s chairman
        contracts with the Foundation as well as the park, and Latschar’s relationship with the
        Foundation is questionably close. (Questions of Conflict of Interest) (Latschar’s
        Consideration of Becoming Foundation President)
    • Latschar canceled Eastern National’s (EN) contract without justification. (Cancellation of
        Eastern National Contract)
    • After EN’s contract was canceled, an EN employee was inappropriately hired by GF and
        unethically gave EN’s business contacts to GF. (Eastern National Employee Hired by
        Foundation)
    • Latschar influenced employees to donate leave to his wife while she was a park
        employee. (Coercion of Leave Donations)
    • Latschar unjustifiably fired a pregnant EN employee. (Firing of a Pregnant Employee)
    • Latschar’s wife was questionably named the administrator of a deceased local woman’s
        estate. (The Lyons Estate)
    • Latschar improperly influenced/covered up the criminal investigation of a relative.
        (Improper Influence over Investigation of a Family Member)
    • Latschar wrongly purchased hot tubs with park money. (Inappropriate Use of Park
        Money to Purchase Hot Tub)
    • EN gave money to Latschar to use at his discretion. (Inappropriate Use of Money from
        Eastern National)
    • EN built a fence on Latschar’s property for free. (Fences and Permits)


                                               3
   •   The park’s witness trees are inappropriately being used in commercial ventures.
       (Commercial Use of Witness Trees)
   •   Latschar shrouds the park in secrecy, keeping documents from the public and creating an
       environment where employees are afraid to blow the whistle on management. (An
       Atmosphere of Secrecy and Fear?)

NPS Oversight

The case complainant and other witnesses throughout this investigation questioned the
relationship between the park and its private partner, the Foundation. Specifically, they
questioned if NPS maintained proper oversight and still held a representative voice in the park,
considering so much of the park was focused on the new, Foundation-owned MVC.

A concern repeated in the media by critics of Latschar and the private partnership, as well as
witnesses in this investigation, was whether or not the public was promised one thing and
delivered another throughout the development of the MVC. Namely, the facility ended up being
larger and costlier than advertised by NPS, federal funds were appropriated to the Cyclorama
painting despite NPS statements that no federal dollars would be involved in the MVC, and the
museum eventually became a fee-charging venue after NPS had presented it as free-of-charge.

Exhibit B to the General Agreement (GA), the Development Plan, acknowledges that review of
the project by the NPS Development Advisory Board (DAB) is required prior to NPS approval
of the schematic design documents. The exhibit indicates that the DAB will examine “project
scope, alternatives considered, value analysis of the project, project schedule, cost per square
foot, and other related information.”

The DAB consists of five NPS senior managers and five non-NPS advisors who meet on a
regularly-scheduled basis to review construction projects costing over $500,000. The purpose of
the DAB is to ensure that projects are of high quality, appropriate for their setting, and cost-
effective.

Although Latschar did not think at the time that he had to go through the DAB process for the
MVC because it did not apply to private foundation work, then-Deputy Director Denis Galvin
told him the DAB was required. Latschar said he consequently sent the MVC proposal to
Denver for review by the Division of Construction Program Management (DCPM), led by its
chief Michael LeBorgne, whose job was to resolve any issues prior to the meeting of the full
DAB.

After reviewing the project proposal, LeBorgne and his staff, including a Program Analyst, had
some concerns with the large scope of the project. Specifically, the proposed MVC was “quite a
bit larger” than the typical NPS visitor center, and included restaurants, a book store, GF office
spaces, and other amenities not typically included with a visitor center. The proposed size was
listed as 135,000 square feet, and LeBorgne was concerned about the cost of operating and
maintaining a facility of that size. He recalled that the original MVC proposal stated the MVC
would be a non-admission facility; however, since the proposal said the construction of the MVC
would not use NPS money, LeBorgne did not review the financial aspect of the proposal.

                                                4
To address the DCPM’s concerns, LeBorgne and the Program Analyst held a conference call in
October 2003 with Latschar and Foundation representatives, including the project architect,
Robert Kinsley, Jr. According to Latschar, the DCPM model was “crude,” and its data
conflicted with the data provided by the Foundation’s architectural and design firm, LSC.
Latschar said the teleconference turned “real sour real quick” when LeBorgne and his staff
insulted the expertise of the Foundation’s design team.

According to LeBorgne, his staff was professional and never insulted the MVC team. In fact,
LeBorgne said some of their rebuttal arguments or propositions made sense to him, such as
building the facility at the proposed size in order to collect enough fees to cover costs. LeBorgne
said Latschar took umbrage at being asked if federal funding of the Cyclorama restoration
required the Foundation to follow the Federal Acquisition Regulation (FAR). LeBorgne said the
teleconference “went downhill very quickly,” with Latschar allegedly saying LeBorgne had no
authority to ask such a question, and Kinsley adding that the NPS had no authority to regulate
how the Foundation hired its contractors. According to LeBorgne, at that point Latschar told
him to stay out of the project and let the DAB make their ruling.

After the October teleconference, Latschar said he called NPS Director Fran Mainella and
requested to meet with her while she was in Philadelphia. According to Latschar, on October 9,
2003, he and Foundation President Robert Wilburn met with Mainella, Associate Regional
Director of Design and Development David Hollenberg, and Northeast Regional Director Marie
Rust. At this meeting, Latschar told Mainella about the unprofessional behavior of the DCPM
personnel and also explained the MVC project to Mainella, who in turn promised she would
attend the DAB meeting to ensure its professional conduct.

On November 4, 2003, the full DAB met at the American Geophysical Union in Washington,
D.C., with the MVC slated for review at 1:30 p.m. Latschar’s MVC team gave a 10 to 15-
minute presentation followed by a question and answer session by the DAB. LeBorgne and the
Program Analyst said they advised the DAB of the same concerns they discussed with Latschar
and his team in the teleconference weeks earlier. The project architect, Kinsley, Jr. said it was
not feasible to build the MVC any smaller without charging an admissions fee to make up for the
loss of income from excluded retail services. Wilburn said no one on the DAB objected to the
cost or size of the project while he was present.

Despite the DCPM’s concerns, the DAB approved the project. Both the Program Analyst and
LeBorgne acknowledged that, while the DAB typically accepted the recommendations of the
DCPM staff, it was not unheard of for the DAB to disagree and decide against the staff.

According to LeBorgne, he was misquoted in a February 27, 2009 National Journal article. He
said that when he spoke to National Journal, he did not say that he and the DAB had been
“rolled” by Latschar. The Program Analyst also denied having used the word “rolled” to
describe what happened over the DAB decision. “We were not rolled,” LeBorgne told OIG
agents, adding that “[t]he board used their professional judgment” in deciding to approve the
MVC project as proposed by NPS and GF. He added that the DAB was made up of capable and
competent individuals and that he trusted the process. If the DAB approved a project, it was

                                                5
because they thought it was the right thing to do.

In the Program Analyst’s opinion, the DAB members were comfortable with the information
provided to them by Latschar during the presentation in order to make an informed decision.
Although the Program Analyst did not believe anything unethical was involved with the decision
process, he recalled feeling that the typical open debate did not happen on this particular project,
and that the approval decision was made mostly behind closed doors.

Multiple witnesses confirmed that NPS Director Fran Mainella attended this particular DAB
meeting, although nobody could recall her attending more than one prior DAB meeting during
her entire tenure as director. Both the Program Analyst and LeBorgne said Mainella’s presence
made it clear she was interested in the projects, although they could not remember her previously
commenting about the MVC project.

Nobody recalled her saying anything during the meeting; however, the Program Analyst said, “It
was very evident, just looking around at the board members’ faces, that they were stunned that
she was there.”

The National Journal article quotes Mainella as stating that her attendance was an attempt “to
better understand how the DAB process worked,” not to pressure anybody, and that “[s]ome
employees feel that pressure when you show up…”

Mainella did not return multiple telephone calls from the OIG agent seeking an interview.

Federal Funding and Its Ramifications

The GA between GNMP and the Foundation, as permissible under 16 U.S.C. § 1 et seq.,
particularly 16 U.S.C. § 6 and 16 U.S.C. § 1a-2(g), authorizes the NPS, through the Secretary of
the Interior, to accept donations for the purposes of the national park system and to enter into
contracts including cooperative arrangements to provide exhibits, park programs and interpretive
demonstrations in national parks.

Nothing in the general agreement forbids federal funding, and although the general agreement
states that "[n]o federal funding for this project is anticipated,” over $15 million in federal funds
were eventually appropriated to the MVC project. Congressman John Murtha (D-PA) earmarked
the money in five separate appropriation years (2002, 2003, 2004, 2005, and 2008) for the
restoration and reinstallation of the Cyclorama painting.

According to Wilburn, Murtha’s action was unsolicited; Murtha was interested in the MVC
project and met regularly with Wilburn, periodically earmarking federal appropriations for the
Cyclorama restoration. Toward the end of the restoration project, Murtha asked how much
money was needed to finish the project and, after a briefing by Wilburn, indicated that the
remainder of the money would be appropriated.

Wilburn said the project was controversial “from day one.” He knew from his experience that
the initial MVC price tag that NPS was publicly estimating was too low and that a subsequent
feasibility study brought the price up to approximately $75 million. Wilburn said he was aware
                                                 6
that NPS was telling the public the project would cost less than it actually would and that it
would include no federal money. He said the $75 million cost was what had been formally
presented to the DAB, $68 million of which were donated privately.

Witnesses disagreed over what sources of MVC funding were or were not disclosed in the
proposal/approval process. The Program Analyst said that during the October 2003
teleconference, Latschar and his team advised that there would be no federal money; LeBorgne
recalled, however, that Latschar said they intended to secure government funding in order to
maintain certain exhibits such as the Cyclorama painting.

Latschar could not remember discussing funding during this conference call, adding that it was
not within the purview of the Program Analyst and LeBorgne to question the funding in the first
place. Latschar said that if they had brought up issues about the funding during the conference
call, Latschar would not have addressed the issue. Latschar added, however, that his
presentation at the DAB meeting made it clear the project would need state, federal, and private
funding.

Regarding the money earmarked by Congressman Murtha, Latschar said his first conversation
with Murtha’s staff was in January 1995, and that he had met with Murtha and his staff
numerous times between 1995 and 1999 about the project. After the GA was signed between
GNMP and the Foundation, Murtha contacted Galvin and requested a briefing on the project.
According to Latschar, Murtha said he doubted the Foundation would be able to fund the project
by itself. Initially, Murtha wanted to appropriate $40 million; Latschar said he declined because
he wanted to see if the partnership between the park and the Foundation would work, and he
believed it could be done without congressional funding. When the estimated cost of restoring
the Cyclorama painting began to climb, Latschar knew they would need assistance, which later
came through funds earmarked by Murtha.

According to the Program Analyst, during the DAB presentation, Latschar said they had no plans
to ask for federal funds for the project; however, Latschar said he had no control over the
Pennsylvania delegation. LeBorgne reiterated that Latschar said there would be no government
funds involved, and all the design and construction would be done by the Foundation. Further,
LeBorgne said Latschar told everyone the park would not charge admission fees.

The Cost of a Visit: Museum and Visitor Center Fees

An important example of Latschar’s park mismanagement, according to the case complainant, is
his charging of an entrance fee to the park museum that had previously been free to the public.
The complainant alleged that the new MVC was well-funded by both the federal and state
governments and, therefore, the entrance fee was unwarranted. The complainant alleged that this
was one of many examples in which Latschar misled the public by promising one thing and
delivering something different.

The sections of the MVC must be distinguished when discussing fees. There is no charge and
has never been a charge to enter the visitor center portion of the MVC facility. The subject of
much controversy, however, has been the museum portion, which began as a free venue and was

                                                 7
later changed to a paid admission venue. When the MVC first opened, only the Cyclorama and
orientation programs charged fees. After the theater was added to the MVC, a third fee began to
be collected.

The parameters for all fee collections are set in the GA of 2000, which states that the Foundation
(or an NPS-approved third party) is “responsible for operations of park-based interpretive fee
venues.” The GA specifically itemizes those venues as “the Cyclorama program, the orientation
program, and the Gettysburg Film Theater”.

The GA delineates that while the Foundation is responsible for interpretive fee venues, NPS is
responsible for non-fee venues and facilities, including “the Museum, the archives and collection
storage area, the educational classrooms, and the Library/Research Center.” The GA clearly
does not include the Museum in the interpretive fee program (See Attachment 4). Further, the
November 2006 amendment to the GA explicitly states that the museum and its exhibits “will be
free to the general public”.

On August 28, 2008, NPS publicly announced a proposal to amend the existing fee structure and
begin collecting a single, “all-in-one fee” to “cover the museum exhibits, the ‘New Birth of
Freedom’ film, and the restored Cyclorama Painting.” The notice proposed that the Foundation
would collect the single fee because the Foundation “is responsible for operations of the museum
facility.” The notice indicated that the “new ticket would allow the Foundation to lower its fees,
creating a higher value for park visitors, and allowing visitors multiple opportunities to enjoy the
venues during the day of their visit”.

The proposal notes that the 1999 GMP and the 2000 GA anticipated three fee-based interpretive
venues: the electric map, the Cyclorama painting, and a theater film. The electric map was later
eliminated because relocation and restoration was cost-prohibitive.

After the MVC opened, NPS and GF analyzed data and visitor feedback, concluding that the free
“museum experience…is so good that visitors feel little need to pay for the theater experience.”
They also concluded that the existing fees were higher than the public expected to pay.

The proposal reasoned that implementing a single fee structure would “[improve] the
Foundation’s ability to meet its financial goals” and create a better overall experience for
visitors. The document added that entrance to the park and visitor center would continue to be
free, and “numerous exhibits” can still be seen free-of-charge in the theater and museum lobbies.

On October 1, 2008, after a 30-day public comment period, NPS posted a public notice that NPS
and GF had “decided to charge a single admission fee for venues…including museum exhibits,
the film (‘A New Birth of Freedom’), and the Cyclorama Painting.” The notice reasoned that the
single fee will provide “a higher value for visitors…[allowing them] multiple opportunities to
enjoy the venues during their visit,” while the majority of a visitor’s experience at the park will
remain free.

The decision document summarized the 572 public comments to the proposal, noting that over
half favored the new fee structure, while roughly one-third opposed it. Of particular note is that
some “opposed the implementation of a fee to enter the museum on principle, expressing their
                                                 8
belief that the museum collections held by the NPS should be available to all citizens at no
charge.”

Foundation president Robert Wilburn said he and the Foundation mistakenly believed at first that
fees collected from the film and the Cyclorama would be enough to keep the museum free;
however, the visitors were skipping the film because the museum was so well done. The loss of
revenue was adversely affecting an organization that had to generate positive income to support
operations, and the revenue was falling short of budget projections. GF Vice President Elliot
Gruber said that, because of the loss of revenue, he, Wilburn, Latschar, the Chief Ranger, and a
GF employee decided to implement the fee change.

Latschar told the OIG that, although the GA is the authority for allowing GF to collect revenue,
he ran the fee change proposal by DOI’s Office of the Solicitor (SOL), which advised that NPS
present it for public review. The Regional Solicitor confirmed that he reviewed the fee change
proposal and verbally advised Latschar that GNMP had the authority to implement the fee;
however, he said Latschar did not ask about the need for a public comment period or publication
in the Federal Register. The Solicitor told the OIG that if the fee change would have amended
the GA, it would have been prudent, but not necessary, to publish the proposal in the Federal
Register.

Latschar said that, after the public review period revealed a 60 percent nationwide approval rate
and a 50 percent local approval rate, the fee structure was changed. Latschar said he briefed
Northeast Regional Director Dennis Reidenbach who said it was “fine,” and in the absence of
Reidenbach’s veto, Latschar and the Foundation implemented the new fee.

Reidenbach told the OIG agents that, despite Latschar’s characterization that Reidenbach was
merely briefed before offering a verbal approval, he had been aware of the fee change proposal
throughout and had been in favor of the fee change as long as the public comments were
favorable. Reidenbach said that, although Latschar had the authority as the superintendent to
implement the fee, Reidenbach had gotten involved because the park was now taking a course of
action that contradicted the GMP’s intent of providing a free museum to the public.

The new “all-in-one” fee structure took effect October 2, 2008. The decision document concluded
that the Foundation would continue to evaluate the change, with NPS maintaining the “right to
review and approve all” operational aspects of the MVC.

Any material modification to the GA requires a written and signed amendment. While the fee
structure change is described in the public notice as a decision made by both the Foundation and
NPS, we found no written and signed amendment changing the interpretive venue fee structure.

Award of Contracts

Our investigation examined allegations that contracts at the park were awarded without
competition, ensuring that Kinsley and his companies received preferential treatment.
Contractors hired directly by the private Foundation and paid with privately-raised funds or
donations do not require the Foundation to follow the FAR. When contractors are hired directly
by the park, it is the responsibility of the park to adhere to the FAR.

                                                  9
The agreement for KC to perform construction management services on the MVC project was
between KC and the Foundation and, therefore, did not require adherence to the FAR. As for
what oversight NPS maintained with KC’s construction management contract, Latschar said he
had general approval of contractors but he did not get involved in the approval of subcontractors
hired by KC.

According to Latschar, the subcontractors were hired through a bidding process, which entailed
the receipt of a minimum of three bids. Unlike with the federal government, bidders could be
prequalified, and KC was not required to hire the lowest bidder.

In the design phase of the project, minutes were kept from all weekly meetings held at the park,
which carried Latschar’s approval. During the actual construction phase, Latschar held a
telephone conference every two weeks with KC and the Foundation. The infrequent times
Latschar was unavailable, the Chief Ranger took his place. Latschar said the Chief Ranger
started off as a law enforcement and interpretive ranger, but soon he was tasked with overseeing
the curation staff as well. Latschar designated the Chief Ranger as the point of contact for the
Foundation’s engineers, painters, and contractors involved in the restoration of the Cyclorama
painting. When asked why the Chief Ranger was tasked with so much, Latschar said he “needed
somebody to be the point man.”

Foundation officials confirmed that KC was responsible for its own subcontractor selections on
the MVC project, although Wilburn said he approved and “signed off” on every subcontractor
chosen by KC.

In addition to examining Foundation contracts involving KC, OIG agents also examined park
contracts involving KC to identify whether or not federal procurement regulations were
followed. Agents found two park contracts involving KC—one for a roads project and the other
for a water line project. According to the Administrative Officer, the roads contract was handled
by the Denver Service Center (DSC). The water line contract was officially handled by GNMP,
although it was technically done by the Contracting Officer at Shenandoah National Park,
because the Administrative Officer’s office was understaffed and could not perform the
necessary contract actions at the time.

According to the Administrative Officer, both contracts were awarded as 8(a) direct awards to
Puente Construction (Puente), a minority-owned business based in New Jersey. He noted that
Puente, as the prime contractor, subcontracted work to KC on both contracts. He did not know
anything more specific about KC’s involvement, and suggested OIG agents speak with the Chief
of Maintenance, GNMP, who functioned as the Contracting Officer’s Technical Representative
on the contract.

The Chief of Maintenance said the design phase of the waterline project took approximately 18
months—much longer than he had anticipated. He believed they were running out of time to do
an open competition for bids on the work, so the park’s course of action was to award the
contract to an 8(a) company. The company that was selected was Puente.



                                               10
Prior to Puente searching for subcontractors, the park held a pre-bid meeting where certain
subcontractors that the park had previously used, including KC, were suggested to Puente. The
Chief of Maintenance said no one from KC or the Foundation was present at this pre-bid
meeting. Bids then came in from potential subcontractors, including KC and Stuart and Tate.

Puente selected KC as the subcontractor for the utility line construction portion of the contract.
KC’s job was to physically install the new waterlines, which involved working at various
locations while also completing some unfinished waterline work from a 2002 contract.

Concerning the roads contract, Puente was once again awarded the contract and paired with C.S.
Davidson to do the design work. Puente again subcontracted with KC on this project.

Questions of Conflict of Interest—Kinsley Construction, the Foundation, and the Park

In November 1997, when an NPS evaluation team selected KC as the developer for the new
museum and visitor center at GNMP, controversy ensued. Many preservationists, Civil War
buffs, and local residents were outraged at KC’s plan, which they believed represented a major
step in commercialization and degradation of the historically-significant battlefield landscape.

The KC proposal included building, at no cost to the government, a facility that would include a
theater and retail space on a parcel of land bought and donated by Kinsley. The proposal also
included establishment of a nonprofit foundation that would own the new facility until debts
were paid off, in part with collected visitor fees, and then transfer ownership to NPS.

Kinsley’s proposal was to build the MVC “at cost,” receiving no profits and providing
construction management services rather than performing the actual construction. According to
Latschar, the selection of KC’s “at cost” approach saved the Foundation between $2 million and
$4.5 million. KC did, however, receive compensation for leasing equipment and supplies to
companies who performed the physical construction. In addition, LSC performed design and
engineering work on the MVC.

The controversy expanded when Kinsley began implementing his proposal by forming the
nonprofit Gettysburg National Battlefield Museum Foundation (Museum Foundation), the
predecessor to what would become the GF. Kinsley established himself as the chairman of the
foundation, a role he continues to occupy today as Chairman of the GF. Kinsley has publicly
stated that his motivation in developing the MVC was purely philanthropic.

Witnesses in this investigation questioned Kinsley’s relationship with Latschar. According to
Latschar, his relationship with the elder Kinsley began in November 1997 when Kinsley was
introduced to Latschar as a proposed partner with NPS in the GA. Since then, Latschar said,
their relationship has been “very good” and “essentially professional.” Latschar said he has been
to Kinsley’s private home on several social occasions for dinner, although Kinsley has never
been to Latschar’s private residence.

Not only did witnesses question Kinsley’s relationship with the park superintendent, they also
questioned the propriety of Kinsley occupying the dual role of Foundation board chairman and

                                                 11
contractor hired by the same Foundation. Although the Foundation’s board of directors oversees
decisions such as the Foundation’s selection of contractors, GF officials have indicated that
Kinsley has abstained and continues to abstain from decisions that involve KC or personal
benefit to himself. We could not substantiate whether or not Kinsley abstains from those kinds
of board decisions.

To address potential conflicts of interest, GF created a conflict of interest policy on June 6, 2002.
According to Wilburn, GF’s policy was a compilation of other museum policies, from which GF
essentially adopted what they found useful and applicable. When asked if Kinsley was involved
in the creation of GF’s policy, Wilburn said, “I don’t think he was excluded from the meeting.”
Wilburn said that if a conflict of interest would ever arise, it would be presented to the
Foundation’s board for their opinion. Any conflict of interest would similarly be recorded in the
Foundation’s 990 tax forms.

Further addressing potential conflicts of interest, the Museum Foundation also sought a third-
party legal opinion regarding their contracting with KC and LSC, as well as recommendations on
how to conduct its procurement process for the new MVC. On September 3, 2004, Thompson
Coburn, LLP, issued a 19-page legal opinion that was subsequently reviewed by the Museum
Foundation’s Audit Committee, by Museum Foundation and NPS legal counsel, as well as the
Regional Solicitor. Each of the aforementioned parties agreed that NPS and the Museum
Foundation could meet all requirements for avoiding conflicts of interest. Latschar briefed
senior DOI officials on the results of the legal reviews.

The contracts to KC and LSC were privately awarded and privately funded. The OIG’s Office of
General Counsel noted that, had the contracts involved federal funds, conflict of interest laws
and regulations would then have applied. Aside from those where federal funding is concerned,
however, federal conflict-of-interest statutes, regulations, or rules do not prohibit the contractual
arrangements between nonfederal entities.

Latschar’s Consideration of Becoming Foundation President

In August 2008, Latschar was in attendance at a GF board meeting when GF President Robert
Wilburn announced his plan to retire. To discuss a prospective replacement, the board held an
executive session without Latschar, Wilburn, and members of Wilburn’s staff present in the
room. The session led to the formation of an executive search board.

In mid-October 2008, while Kinsley was visiting Gettysburg, he informed Latschar that the
search committee had unanimously chosen Latschar as its top candidate to replace Wilburn as
GF president. Latschar said he told Kinsley that he was uncertain if he could even consider
taking the position because of his relationship with GF as the superintendent of GNMP.

According to Latschar, several days later on October 14, 2008, he sent an e-mail to the NPS
northeast regional ethics contact in Boston, asking for ethics advice. The northeast regional
ethics contact forwarded the information to a NPS ethics official, who then called Latschar to
discuss the potential employment. Latschar said the NPS ethics official gave approval for him to
accept the position, with one caveat: as the president of GF, he could take any action that

                                                 12
implements the current GA between GNMP and GF; however, he could not represent back to the
government on GF’s behalf in any matter that revised or modified the GA. In addition, the NPS
ethics official informed Latschar that while he was deliberating the acceptance of the new
position, he could not enter into discussions about altering the current GA.

Examination of e-mail traffic confirmed that Latschar sought initial ethics advice on October 14,
2008. On October 16, 2008, the NPS ethics official provided official ethics advice to Latschar
via e-mail. On October 28, 2008, Latschar entered into a formal employment agreement with GF
to accept the position of President of the Foundation.

Following the NPS ethics official’s assessment, Latschar was a participant in a December 16,
2008 conference call with the NPS ethics official, DOI’s Designated Agency Ethics Official
Melinda Loftin, and a DOI ethics attorney. A subsequent DOI ethics opinion issued by Loftin on
January 26, 2009, determined that Latschar could not perform the duties of GF president without
violating post-government employment restrictions. Based on this revised ethics opinion,
Latschar officially turned down the position with the Foundation on January 28, 2009.

When asked when negotiations for post-employment began, Latschar said he believed
negotiations both began and ended on October 24, 2008, when Kinsley visited his office, and he
accepted Kinsley’s offer to become GF’s new president at an annual salary of $245,000.
According to e-mail messages that were examined, however, Latschar had been discussing the
possible position as early as October 14, 2008.

Latschar’s consideration of the position officially ended on January 28, 2009, when he formally
withdrew from his employment arrangement via an e-mail message to Kinsley.

Cancellation of Eastern National Contract

The complainant alleged that Latschar unjustifiably cancelled contracts with EN—including the
contracts for the park’s bookstore and tour reservation service—and gave them to The Event
Network (TEN).

According to Latschar, EN was a cooperating association working with GF to provide
concessions prior to being replaced by TEN. EN operated the bookstore, collected fees for the
Cyclorama, electric map, and ENHS, and operated the ticketing/reservation system for park
tours.

With the completion of the MVC, the park and GF analyzed the need for somebody to operate
the bookstore and food services. During the bidding process, vendors submitted bids proposing
how they planned to provide services in the new building.

According to the Director of Retail Operations, EN had four opportunities to bid on the contract
at the new MVC. The first opportunity occurred before the Foundation publicly announced it
was looking for a company to operate the bookstore.

The Director of Retail Operations said that after the first bid, the park informed EN that their

                                                 13
proposal was not selected because EN was not proposing to return enough money to the
Foundation. He said EN’s subsequent bids tried to address that issue but were also unsuccessful.
He also said that, regardless of the outcome of the bid selection process, NPS treated EN fairly.

Latschar said that EN was clearly not the best choice either financially or logistically. For
example, he said he wanted the bookstore and food services operator employees to wear clothes
that did not identify them as employees of a company but as MVC staff members—an effort to
provide a unified feel to the MVC—but EN refused. According to Latschar, EN’s competitive
bid was far inferior to TEN’s, who was selected over Aramark and the Smithsonian as well as
EN.

When EN lost the bookstore competition, Latschar said, they still operated the
ticketing/reservation system. In the fall of 2007, EN moved the operation of the system off of
park property to Gateway Gettysburg, a tourist area developed by local businessman Robert
Monahan. Latschar believed EN wanted to move closer to Park Trek, one of EN’s for-profit
subsidiaries, in order to compete with GNMP and to recoup their loss of bookstore revenue.
Because EN made the move without GNMP approval, Latschar terminated their contract for
what he believed was breach of contract.

Eastern National Employee Hired by Foundation

According to another local businessman, the very same day that Latschar terminated EN, GF sent
a letter to every business contact of EN announcing the replacement and that the reservations
would be operated by GF. The businessman wondered how GF obtained the names of those
contacts and later discovered that a former EN employee who holds essentially the same position
now with GF, provided the information to GF and was working for GF the very next day.

During an interview, an executive from the Association of Licensed Battlefield Guides, also
commented on the former EN employee going to work for the Foundation. According to the
executive, the former EN employee left EN and went to work for the Foundation, bringing
customers’ files and credit card numbers from EN’s tour reservation system. When asked how
he knew the former EN employee brought the files, the executive said it was “pretty much
common knowledge.”

The OIG agents questioned another witness, who requested anonymity and will be hereafter
referred to as Anonymous Witness 1 (AW1). AW1 opined that the former EN employee was
being paid by the Foundation to bring them information from EN’s databases but could not
substantiate the belief. According to Latschar, all but two or three EN employees took jobs with
GF following the termination of EN’s contract. Latschar said that, although the former EN
employee might have brought the contacts from EN, there is nothing untoward about GF now
possessing those contacts. NPS initially developed those contacts and provided them to EN for
their use; therefore, NPS’ new partner, GF, rightfully should have the contacts.

Coercion of Leave Donations

During his interview, the complainant alleged that Ms. Latschar went on paid leave from the

                                               14
park for over a year and, in order to facilitate the leave of absence, Latschar told park employees
by e-mail and memorandum to donate their leave hours. The complainant said multiple NPS
rangers have confirmed that information.

OIG agents spoke with three of the rangers identified by the complainant concerning this
allegation. All three rangers said fundamentally the same thing—that they never felt pressured
to donate leave to Ms. Latschar, and that they were never approached by Latschar in any fashion
to donate leave. None of the rangers donated leave to Ms. Latschar and had not received
retribution for not doing so.

Latschar denied ever asking any park employees, either in person or through an e-mail or
memorandum, to donate leave to Ms. Latschar. A search of Latschar’s computer hard drive
revealed no such document.

Firing of a Pregnant Employee

During a telephone call with the OIG agents, the complainant alleged that a pregnant employee
at the park had been unjustifiably fired by Latschar, and the complaint suggested agents speak
with AW1 about this issue. When questioned about the allegation, AW1 identified the employee
as a former employee of EN but not of GNMP. AW1 said this employee was unfairly fired at
Latschar’s demand while she was pregnant.

Latschar said he could not recall the employee, but that it would have been the EN manager’s
responsibility to reprimand and terminate EN employees. Moreover, according to Latschar,
EN’s headquarters would have been involved in any employee terminations. Latschar said he
vaguely recalled the incident. Latschar recalled someone telling him about the comment on
MySpace and that he spoke to the EN Manager about it. According to Latschar, the former EN
employee was subsequently let go. Latschar said he would sometimes make suggestions to EN
about certain employees but he could not recall making any specific recommendations in this
case.

During a telephonic interview, OIG found the employee worked for EN from 2000 to 2007. The
employee started out working at the ticket counter and reservation desk and eventually became
the EN manger’s assistant. The employee said she did not like Latschar because he thought he
was infallible and smarter than everybody else.

The employee never took an official break during the workday, so she would periodically update
her personal blog during work hours. Eventually, the employee was called into the EN
manager’s office and questioned about the blog. The employee was reprimanded and told she
should not be writing her personal blog during work hours, and was then terminated from her
employment with EN.

The employee said Latschar’s name never came up as the reason she had gotten fired, nor did the
EN manager bring up a derogatory comment she had made about Latschar on her blog. The
employee admitted she should not have written those things in her blog, particularly during work
hours, and that she understood why EN had fired her.

                                                15
The EN manager confirmed that he had terminated the employee for writing disparaging
comments in her blog about Latschar and particularly about her own employer, EN. According
to the EN manager, nobody at the park, including Latschar, asked for or demanded the
employee’s termination; the nature of the comments warranted her removal.

The Lyons Estate

According to the complainant, a local wealthy woman named Becky Lyons owned substantial
property on the park grounds but died without an heir to the property. The complainant said it
was curious how Superintendent Latschar’s wife was named the administrator of Lyons’ estate.

Another Park employee said there was nothing unusual about Ms. Latschar becoming the
executrix of Lyons’ estate. According to this employee, Ms. Latschar and Lyons were good
friends and, since Lyons had no other living relatives, it was not unusual that Ms. Latschar had
assumed the duties of executrix.

A Park Ranger, who was a friend of Lyons and former GNMP employee, confirmed that Ms.
Latschar and Lyons had been very good friends, adding that Ms. Latschar’s children thought of
Lyons as an aunt. At the time of Lyons’ death—February 7, 2007—the Park Ranger took care of
the funeral arrangements while Ms. Latschar assumed the duties of executrix, a role the ranger
approved of and which he truly appreciated Ms. Latschar assuming. According to the Park
Ranger, Ms. Latschar became the executrix “simply out of friendship” because Ms. Latschar and
Lyons “were like sisters.” The Park Ranger said he was grateful and impressed that Ms.
Latschar had taken on such a task after Lyons’ death because it was a lot of work.

Improper Influence over Investigation of a Family Member

The complainant pointed the OIG investigators to Latschar’s influence over an investigation of a
relative at GNMP. According to the complainant, Latschar attempted to cover up the relative’s
theft and block the subsequent investigation, keeping it from the Federal Bureau of Investigation.

Agent’s Note: Because the relative in question was charged as a juvenile, they were referred to
in NPS law enforcement records as JUV1 and will herein be identified as JUV1.

An examination of NPS law enforcement records revealed that in April 2002, a NPS Law
Enforcement Ranger conducted an investigation of theft from an EN bookstore at GNMP. Four
juveniles, including JUV1, were caught in a false refund scheme. The juveniles, three of whom
worked for EN at the bookstore, assisted each other in issuing false refunds for bookstore
merchandise they had not purchased.

According to the NPS Law Enforcement Ranger, JUV1 was arrested and questioned about the
alleged thefts. JUV1 admitted to stealing merchandise through the false refund scheme and was
cited for two offenses under 36 C.F.R. § 2.30, Misappropriation of property and services, in
exchange for their cooperation in the investigation, their admission to the thefts, and payment of
restitution to EN. The investigation of JUV1 was concluded after JUV1 paid $497.99 to EN.

                                                16
Latschar told the OIG agents that he was embarrassed by his relative’s actions but took no role in
the investigation. He denied having any influence over the investigation because of his position
at the park, allowing NPS law enforcement to handle the entire investigation.

The NPS law enforcement ranger confirmed that Latschar never attempted to influence the
investigation. He said he was “pretty sure” he and Latschar never even discussed the
investigation, adding that he would have taken issue with any attempt by Latschar to affect the
investigative process. The Ranger said that Ms. Latschar was present for one of JUV1’s
interviews only because she was an extended family member.

Interviews of other NPS law enforcement personnel revealed that nobody believed Latschar
attempted to influence the investigation. Another ranger said he believed the investigation was
conducted properly by the assigned NPS law enforcement ranger, whom he described as a
“methodical” investigator.

Interviews of current and former EN regional supervisors revealed their certainty that Latschar
did not attempt to influence the investigation. The former manager of the bookstore at the time
of the theft was never questioned by law enforcement and did not know how the investigation
was concluded, aside from restitution being made.

The NPS law enforcement ranger acknowledged that the restitution amount was probably not the
exact amount that had been stolen. He said EN’s inventory process was so shoddy that it was
impossible to determine the loss amount, and it hampered the government’s ability to prosecute
the case in court. EN recovered the money they recovered only because the juveniles admitted to
those amounts.

The investigation was handled internally by NPS law enforcement in coordination with the
United States Attorney’s Office in Harrisburg, PA. After multiple interviews and document
reviews, no evidence was discovered that Latschar had influenced or attempted to influence the
investigation of his relative.

Inappropriate Use of Park Money to Purchase Hot Tub

Another allegation that arose during the investigation was that Latschar utilized park money to
purchase a hot tub for his personal use at his home.

When questioned, another Park employee said they had no knowledge of Latschar using park
money to purchase a hot tub. This employee was aware that Latschar had owned a hot tub at one
point but doubted he had used park money to purchase the hot tub, stating, “I’m sure it was his.”

An electrician, GNMP, was interviewed concerning the installation of Latschar’s hot tub. The
electrician recalled that he performed some related electrical work while Latschar was living at
the park’s Rose Farm. He said that, although he did not help move the hot tub to the property, he
was directed by his supervisor to make sure there was an electrical outlet at the property for the
hot tub. The electrician tried to recall the time frame in which Latschar would have been living

                                               17
at Rose Farm, and believed that his supervisor at the time would have been Bill Myers, his
supervisor from approximately 1990 to 2000. He believed there was another chief of the
maintenance division at the time.

The electrician said he checked the Rose Farm for an outlet because he “just was following
orders,” although he could not remember for certain who the supervisor was who gave him the
order. He added, however, that he would not have done something such as that without a direct
order. He did not know if the order came from Latschar through his chain of command, but he
did not recall Latschar ever having contacted him directly. The electrician characterized his
relationship with Latschar as professional, not personal, and said he would not have completed
the work as a favor to Latschar.

According to the electrician, he performed the hot tub-related work during official government
duty hours. He added that he did not question his orders and did not even give a second thought
to checking on an outlet for a hot tub.

The electrician added that he believed Latschar was responsible for personal work that needed to
be done on his personal property, including the hot tub itself. He was not certain if it was the
park’s responsibility to facilitate the hook up of Latschar’s hot tub, since it involved connecting
personal property to park property.

A budget analyst, GNMP, was interviewed concerning this allegation. The budget analyst
maintained the files for the allocations of monies at the park and was aware of what projects cost
at the park since the money comes through their office, unless it was contracted out of the DSC.
When asked if Latschar had ever submitted a request to purchase a hot tub with government or
EN money, the budget analyst said, “Absolutely not.” The Budget Analyst explained that they
would have noticed any request for a hot tub, which would have been out of the ordinary;
however, the budget analyst advised that any purchase under $3,000 would be directly handled
by the specific division, meaning they might not see all the details of the actual purchase order.

During an interview with OIG agents, Latschar said he had gotten the hot tub as a gift from a
relative and that it had been installed at the Rose Farm by employees of the park, although not
during work hours. When he moved from the Rose Farm, Latschar gave the hot tub to the Chief
of Resource Planning.

No park or EN funds were used in the purchase of the hot tub. Although interviewed park
employees could not reference a specific park policy regarding who is responsible for activities
such as the hot tub hook-up, they generally believed that the park was responsible for
maintenance activities at park-owned houses.

Inappropriate Use of Money from Eastern National

Generalized in the original complaint was the allegation that Latschar was inappropriately
utilizing park money. Specifically, the complainant alleged that EN reportedly paid “chunks” of
money to the park throughout the years and that Latschar used the money at his own discretion.



                                                18
Park officials confirmed the existence of donation accounts in which EN maintained money for
use by the park. We questioned two officials who were directly involved with the oversight of
the donation account funds.

The park’s administrative officer said EN closed out their accounting books at the end of
October every year, after which they sent a letter to the park notifying the park how much money
was being donated based on the year’s sales. He explained that donated funds were deposited
into one of several accounts the park maintained specifically for receiving donations. He said
that as the park wanted to use those funds, it sent a request to EN, who either sent a check or
made an “in kind” contribution by sending the check directly to a vendor on behalf of the park.
He explained that different accounts were used for different purposes; therefore, if the donor
wanted the money to be used for a particular purpose, it would be segregated from the general
fund.

The park’s administrative officer further explained that GNMP accounted for these donated
funds in the same way it accounted for all of its money, with the park’s budget analyst
maintaining the accounting system. He said “in kind” donations were tracked the same way as
cash. The park’s administrative officer said EN sent the park a monthly report of the donations,
and the parties undertake a monthly and annual reconciliation process to ensure that each party
knew and agreed how much EN had donated to the park. He added that the park sent an annual
certification to EN documenting all of the donation fund transactions and their purposes, which
was signed by the superintendent.

According to the budget analyst since before Latschar became the superintendent, proceeds from
the bookstore’s sales were placed into a donation account accessible to the park upon its request.
The budget analyst said the previous superintendent required the park’s various division chiefs to
submit requests for funds, which would then be approved by the superintendent and submitted to
EN. The budget analyst said the transactions came through their office and that he was also
responsible for maintaining the documentation sent back to EN for verification that the projects
had been completed and the money spent. The budget analyst said they kept track of the money,
which was then reconciled with EN.

According to the park’s administrative officer, NPS policy regarding donation accounts could be
found in Director’s Order 32 and Reference Manual 32. He said the usage of donated funds was
restricted. For example, they could be used for interpretation and maintenance of the park;
however, they could not be used for administrative or overhead costs. He said the park made an
effort to make sure the donations were used for a purpose that fit within EN’s “boundaries.”

Fences and Permits

In his initial complaint to the OIG, the complainant alleged that EN paid $7,000 to have a fence
built around Latschar’s property. The National Journal also picked up the fence allegation and,
in a February 21, 2009 article, chronicled $8,700 of fence work on four acres at Latschar’s
Gettysburg residence on Taneytown Road.

According to Ms. Latschar, she began renting the property in 1996 and sometime later

                                               19
discovered that she was able to lease the adjacent pasture—known as the Swisher Pasture (SP)—
through a park special use permit.

When she discovered that the special use permit, renewable annually, allowed her to pay “$25 a
head” to fence her horses, she was thrilled with the inexpensive price and the ability to bring her
horses to her residence. According to Ms. Latschar, she inquired about the permit, and after park
Deputy Director John McKenna (dec.), a “good friend,” approved the permit, she signed the
associated documentation at the park’s administrative office on Biglerville Road and began
boarding her horses inside the wire fence of SP.

According to park documents retrieved by a park natural resource specialist, who oversees
special use permit issuance and compliance in the agricultural program, Ms. Latschar first began
holding the SP permit in August 1999. Latschar confirmed that his wife held the SP permit prior
to their marriage and continued to renew it following their purchase of the house in 2001.

Two fences stand on the Taneytown Road property—a white, wooden fence that belongs to the
Latschars and surrounds portions of their private property, and a post and wire fence that
surrounds the park’s SP. Ms. Latschar said the wire fence had already been on the property
when she first began renting; however, it was in disrepair and did not contain any animals.

An examination of park documents revealed that two maintenance actions were performed on
portions of SP wire fencing. One action was performed in March 2002 and one in December
2008.

The 2002 action was procured through an EN purchase order to replace 1,126 feet of wire
fencing at SP. According to the purchase order signed by Latschar, the justification was to
“[r]eplace deteriorated fencing around the Swisher pasture to prevent livestock from getting out
in the vicinity of Sedgewick equestrian monument” and to “insure [sic] the continued protection
of the resource.” The order also noted that the fence replacement will “aid and promote the
historical, educational, scientific, conservation and interpretive activities” of NPS.

The work was completed by A.L. Fence Co. of Biglerville, PA, at a cost of $4,800 and funded
through EN donation account #8341-Z-138G E. The fence was technically donated by EN to
GNMP, consistent with EN’s operation of donation accounts at other parks, according to EN
personnel interviewed by the OIG. Latschar noted at the bottom of the purchase order that “[t]he
park gratefully acknowledges this donation from Eastern National.”

The 2008 action was procured through park requisition number R4400090017 to “Repair Horse
Pasture Fence” at SP. The award was 100 percent set aside for small business and was
competitively bid and won by A.L. Fence. The park paid A.L. Fence $3,910 for the installation
of 505 feet of wire fencing. This contract action was funded by GNMP, not through an EN
donation account.

Although the SP permit states the permit holder is responsible for maintenance of wire fencing,
the administrative officer distinguished between maintenance and major repairs. He said the
permit holder was responsible for “day-to-day” maintenance such as tamping a loose pole;

                                                20
however, the park was responsible for large-scale repairs such as replacing major sections.

The park’s administrative officer said the park’s maintenance division spends between
approximately $19,000 and $28,000 every year in repairing fencing throughout the park and,
therefore, stockpiles fencing materials for repair and replacement. He added that fences in
disrepair that permit livestock to escape their pasture and roam around are a high priority at
GNMP and must be quickly repaired.

As for Latschar’s understanding of fence repairs, he said he believed the special use permit
requires him to maintain the SP land while NPS is required to maintain the fence surrounding it.
He said the white, wooden fence that surrounds his house is his own fence, and he is responsible
for its maintenance, including costs.

Ms. Latschar admitted she was unfamiliar with permit’s terms for fence maintenance but
believed she was responsible for minor repairs while the park was responsible for replacement.
She also believed from talking with GNMP personnel that the wire fence would eventually be
replaced, although she could not recall specifically who gave her that information.

A park resource specialist said maintaining wire fencing is a recurring issue in the agricultural
program, because although fencing is necessary to keep cattle, it is difficult to hold anyone
responsible for maintaining the fencing. He said responsibility varied depending on fencing
type, with the park being responsible for historic fencing.

Page 4 of the SP permit states the following:

               “Whenever practical, all fencing will be established along historic
               lines and all non-historic fencing removed when possible. The
               park will provide labor and materials when relocating or
               rehabilitating historic fences for the park’s benefit. Once a historic
               fence has been constructed, the park will provide materials and the
               permittee labor for maintaining the fence. The permittee will
               provide materials and labor for the maintenance of existing wire
               fence and corrals. No fences will be removed or altered without
               the approval of the Superintendent.”

He said a distinction must be made between repairing a section of wire fence and completely
rebuilding an unusable fence. He did not think it would be possible to require farmers to
completely rebuild a new wire fence; historically, the park bought materials and either
encouraged or helped the farmers to repair wire fencing.

Both a park resource specialist and the chief of maintenance were aware that the SP fencing had
been repaired. While the park resource specialist recalled hearing that horses were getting their
feet stuck in the fence, the chief of maintenance actually witnessed the effects of a horse accident
at SP. He said that in October 2008, one of the horses at SP got tangled in the fence, tore down a
large section, and injured itself badly enough to require euthanasia. The chief of maintenance
said the remaining side of the fence that was not replaced in 2002 was the downed section.

                                                21
Ms. Latschar confirmed that in October 2008, one of her horses, still a foal, got caught in the
wire fence and broke its hip, requiring her to euthanize the horse. Ms. Latschar said the park
replaced the fence in December 2008, even though she believed that the park already had plans
at the time of the accident to replace the fence.

The chief of maintenance said that after the accident occurred, Superintendent Latschar called
him about the problem. He said he then prepared and signed an October 31, 2008 requisition to
replace the fencing at SP. He said the park initially got a quote from Taylor’s Livestock
Fencing; however, A.L. Fencing later gave the park a better quote and won the contract award.

Regarding the responsibility for fence maintenance, the chief of maintenance said he had never
read the terms of the SP permit but did not think the kind of damage to the fence could be
considered maintenance. He opined that replacing a few rails of wooden fencing or re-stringing
the top wire of wire fencing could be considered maintenance, but it would be difficult to require
a permit-holder to undertake such a large project. He said the amount of damage done to the
fence required its replacement.

The chief of maintenance said they had similar fence problems at the Rose Farm and at Culp’s
Hill where cattle were getting loose, and those fences were rebuilt. He opined that it was a
dangerous situation when animals could get out into the park or local community. He cited an
example of some improperly installed split rail fencing that cattle knocked down and got loose.
He recalled the park got a call from one of the Gettysburg schools about the cattle being loose.
The park contacted the farmer who retrieved the cattle and returned them to the pasture. The
chief of maintenance said the farmer restacked the fence but the cattle knocked it over again the
next night. He said park maintenance personnel rebuilt the fence correctly.

As for the 2002 fence repair, the chief of maintenance said he had heard about it while he was
working in the maintenance division, recalling that three sides of the fence were in very bad
condition, allowing horses to get loose and wander over to the Sedgwick Memorial. He did not
know who actually called the maintenance division about the repair but said it could have been
either Mr. or Mrs. Latschar.

The chief of maintenance said he was not actually involved in the repair, adding that everything
was handled by the chief of maintenance at the time. He opined that former Chief of
Maintenance would not have spent money to repair the fence unless it was necessary, because, at
the time, the maintenance division spent money only on necessary items. He said that the repairs
to the fence were made without regard to who was living next to the Swisher Pasture; the fence
would have been replaced even if it was not part of the Latschars’ property.

Ms. Latschar said she did not know if the park’s superintendent, now her husband, was involved
in the approval process for the permit itself or repairs to the fence. She said the permit, during
the entire time she has held it, has remained essentially unchanged except for maybe an increase
in price per head. Although she did not compare her permit with other permit holders who also
boarded horses or other livestock, she believed through conversations with them that her permit
was standard and consistent with theirs.

                                                22
Review of the Agricultural Special Use Permits 2008 Fee Statements report disclosed Ms.
Latschar paid the same rate as the other individuals with Special Use Permits for keeping
livestock on NPS property. The rate was $25 per animal per year.

According to Latschar, NPS re-built the fence surrounding the rented acreage, because it was in
disrepair and could not contain Latschar’s horses. While Latschar said EN had nothing to do
with the post and wire fence surrounding the acreage, investigation revealed that EN had funded
its repair via the donation account they maintained with GNMP. EN did not, however, provide
any of the labor since A.L. Fence completed the actual construction.

Commercial Use of Witness Trees

The complainant alleged that Latschar was allowing fallen witness trees—those that were
standing during the battle of Gettysburg and had “witnessed” it—to be utilized in commercial
ventures. The complainant specifically wondered how a person is given the sole license to
produce items from historic trees in a national park that belongs to the American people.

Latschar recalled a recent incident in which a witness tree had died and fallen on park property.
Latschar said he had the tree cut up and donated to the Friends of the Park, which later became
part of GF. Latschar said he is responsible for making decisions on how to maintain the park
and, in this case, it is permissible to donate the trees to the Foundation; what the Foundation did
with the trees after receiving them was not the park’s responsibility.

Latschar cited a similar situation with bricks removed from the historic David Wills House—
where Lincoln drafted the Gettysburg Address—during its recent renovation, pieces of which are
currently being sold by the Foundation at the Wills House and at the MVC bookstore. Latschar
said the disposition of the bricks was not a concern of his. He added that the construction
company was responsible for removing and disposing of the bricks, and anyone could have
requested the bricks from the construction company after they were removed from the house.
Latschar said that when the same construction company had notified him about tearing down the
stairwell in the house, he decided that the stairwell was significant enough to keep. When
Latschar was asked who made the decision as to what objects were of historical value, he said he
had made the final decisions.

An Atmosphere of Secrecy and Fear?

In an early interview with the OIG, the complainant claimed that Latschar kept the park
“shrouded in secrecy” and created an atmosphere where employees were afraid to speak for fear
of reprisal by Latschar. The complainant even warned OIG agents that they needed to guarantee
anonymity to his sources, otherwise they would not speak about what they knew regarding
Latschar and the park.

During our investigation, the park staff generally complied with document requests in an
efficient manner, with only a few exceptions. Further, witnesses who were characterized by the
complainant as being afraid to speak to the OIG agents on park grounds were unhesitatingly

                                                 23
willing to be interviewed while at work, citing no such fear.


                                          SUBJECT(S)

John A. Latschar


                                         DISPOSITION

No further investigative activity is anticipated. This Report of Investigation will be forwarded to
the National Park Service.




                                                24
